Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




          Home Dialysis
      Payment Vulnerabilities




                    JANET REHNQUIST
                     Inspector General

                        MAY 2003
                      OEI-07-01-00570
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                           EXECUTIVE                        SUMMARY

OBJECTIVE

          To assess End Stage Renal Disease (ESRD) home dialysis billing processes and identify any
          vulnerabilities in Medicare payments.

BACKGROUND

          End Stage Renal Disease, characterized by a permanent loss of kidney function, is the only
          basis for entitlement to Medicare based on the presence of a specific medical diagnosis. The
          Centers for Medicare & Medicaid Services (CMS) is charged with the administration of the
          ESRD Program. By 2000, the ESRD Medicare population in the United States climbed to
          approximately 273,000, with Medicare expenditures reaching nearly $12 billion. In the next 10
          years, the number of individuals with ESRD, as well as Medicare expenditures for this
          population, is projected to more than double.

          A beneficiary may receive dialysis at a facility or at home. If a beneficiary chooses the latter, he
          or she must select one of two payment methods. In Method I, a dialysis facility will provide all
          necessary supplies and services. In Method II, a dialysis facility provides all necessary services
          and a durable medical equipment supplier furnishes all necessary supplies. Fiscal intermediaries
          (FIs) process claims for ESRD supplies and services for Method I, but only services for
          Method II. Durable medical equipment regional carriers (DMERCs) process durable medical
          equipment claims, including dialysis supply kits, for Method II beneficiaries. The FIs and
          DMERCs, which process claims for ESRD facilities and durable medical equipment (DME)
          suppliers, respectively, should match the home dialysis beneficiaries’ method selection to the
          types of payment allowed.

          In order to complete this inspection, we identified the population of home dialysis beneficiaries
          by reviewing every recorded CMS-382 submission, designating home dialysis and payment
          method, from late 1996 to mid-2001. Next, we reviewed the calendar year (CY) 2000
          National Claims History File (NCH) to identify claims for all beneficiaries with a Medicare
          status code indicating ESRD.

FINDINGS

          Medicare and beneficiaries paid an additional $15.3 million for continuous cycling peritoneal
          dialysis (CCPD) under Method II when compared to Method I. Medicare also allowed claims
          without existing method selection data in the Common Working File (CWF), resulting in $9.5
          million in incorrect payments.


Home Dialysis Payment Vulnerabilities                  i                               OEI-07-01-00570
Medicare regulations for reimbursement for home dialysis are inconsistent

          Medicare pays all dialysis modalities under all Methods equally, except for CCPD under
          Method II, where payments per month can be up to $484 more than the others. This premium
          resulted in additional annual payments of $12.2 million for Medicare and
          $3.1 million for beneficiaries in CY 2000. From CYs 1997 to 2000, there was a shift in both
          payment method and dialysis modality, with the majority of these beneficiaries now electing
          Method II, and an increasing proportion using the more expensive CCPD.

Medicare allowed claims without an existing method selection

          According to the Carrier Manual, a Medicare ESRD claim should only be paid if a method
          selection form is on file. If one does not exist, the claim should be denied. Medicare allowed
          $9.5 million for more than 12,000 home dialysis-related items in
          CY 2000 without a method selection designation in the CWF.

RECOMMENDATIONS

          We recommend that CMS:

          ‘          Change regulations to limit payments for Method II CCPD kits to that of Method I.

          ‘	         Ensure that claims are not paid unless a valid method selection form has been recorded
                     on the CWF.

          ‘          Review the $9.5 million in paid Medicare claims and collect any incorrect payments.

AGENCY COMMENTS

          In its written response to our report, CMS disagreed with the recommendation of changing
          regulations to limit payments for Method II CCPD supplies to that of Method I. The CMS
          believes the statute clearly intends that payment limits for CCPD supplies should be set at a
          higher level than under the composite rate methodology. We agree that the statute clearly
          allows a higher payment limit for CCPD supplies under Method II; however, the statute does
          not require paying the higher limit. Therefore, we continue to believe that CMS should
          reimburse suppliers consistently for the same dialysis supplies, irrespective of the method the
          beneficiary chooses.

          The CMS agrees to take corrective action to ensure that claims are not paid unless a valid
          method selection form has been recorded on the CWF and that improper overpayments should
          be recovered. The full text of CMS’s comments is included in Appendix B.




Home Dialysis Payment Vulnerabilities                   ii                            OEI-07-01-00570
                            TABLE OF CONTENTS

                                                                                                                      PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Inconsistent payments for home dialysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Payments with no method selection . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


CONCLUSION & RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES


          Appendix A: Claims Processing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Appendix B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                                        INTRODUCTION

OBJECTIVE

          To assess End Stage Renal Disease (ESRD) home dialysis billing processes and identify any
          vulnerabilities in Medicare payments.

BACKGROUND

          End Stage Renal Disease is characterized by a permanent and irreversible loss of kidney
          function requiring either kidney transplantation or regular dialysis treatments in order to survive.
          In 1972, amendments to Title XVIII of the Social Security Act extended Medicare Part A and
          Part B benefits to virtually all individuals with ESRD regardless of age.1 The ESRD program is
          the only Medicare program for which entitlement is based on the presence of a specific medical
          diagnosis.

          In 1973, the year in which the program was initiated, the number of eligible ESRD beneficiaries
          totaled 10,000. At the end of 2000, the ESRD Medicare population had climbed to
          approximately 273,000, with Medicare expenditures of nearly $12 billion. 2 The number of
          individuals with ESRD is expected to more than double by 2010, surpassing
          660,000 individuals, with projected Medicare expenditures of $28 billion. 2

Home Dialysis

          Dialysis treatments are utilized by 80 percent of ESRD beneficiaries; the remaining 20 percent
          receive transplants or withdraw from treatment. Dialysis may be performed either in a facility
          or in a home setting. Peritoneal dialysis, the most typical treatment modality for home dialysis
          patients, uses the body’s own peritoneal membrane as the filter for screening toxins from the
          body. There are two forms of peritoneal dialysis: continuous ambulatory peritoneal dialysis
          (CAPD) and continuous cycling peritoneal dialysis (CCPD).

          Continuous ambulatory peritoneal dialysis. In CAPD, the dialysate solution is left in the
          peritoneal cavity for 4 to 6 hours. The process of draining the dialysate and replacing fresh
          solution takes approximately 30 minutes, and most patients change the solution
          4 times a day.


          1
           Individuals with ESRD, who are under age 65, may experience a 3-month waiting period prior to Medicare
coverage. In addition, individuals who have coverage under an Employer’s Group Health Plan may undergo a 30-
month period in which Medicare acts as a secondary payer to the Group Health Plan.

          2
           United States Renal Data System, retrieved from the World Wide Web: http://www.usrds.org/atlas.htm
(August 30, 2001). MedPAC (Report to Congress: Medicare Payment Policy; March 2002). CMS ESRD Facility
Survey Tables (OCSQ, CMS; August 2001).


Home Dialysis Payment Vulnerabilities                        1                                    OEI-07-01-00570
          Continuous cycling peritoneal dialysis. Although similar in function to CAPD, CCPD uses a
          machine to automatically fill and drain the dialysate from the abdomen. This process takes
          12 hours and is performed overnight, allowing the machine to exchange the dialysate several
          times.

Treatment and Method Selection

          If a physician certifies that it is reasonable to expect that the beneficiary will complete the
          required self-dialysis training course and is able to self-dialyze at home on a regular basis, the
          beneficiary will complete the CMS-382 form and select either Method I or Method II for billing
          purposes. The beneficiary submits the CMS-382 form to his or her coordinating dialysis
          facility. This facility then forwards the form to the appropriate fiscal intermediary (FI). When
          the FI receives the completed form, it is supposed to enter the CMS-382 data, including the
          beneficiary’s method selection, into its automated system and then transfer the data to CMS’s
          Common Working File (CWF) within 30 days of receipt. The FIs and durable medical
          equipment regional carriers (DMERCs) use the CWF to process, edit, and screen claims,
          helping to ensure proper claims processing. (For a discussion of claims processing see
          Appendix A in this report.)

          According to the Carrier Manual, beneficiaries who choose home dialysis must select a method
          for receiving necessary services and supplies. They can choose either Method I or Method II.

          Method I. With Method I, a dialysis facility provides all equipment and support services for the
          home dialysis beneficiary. The facility is paid at the same composite rate it would receive for
          in-center treatments, regardless of whether the home beneficiary is performing hemodialysis,
          CAPD, or CCPD. The FIs process all Method I claims from facilities for supplies and ESRD-
          related services.

          Method II. Method II was established as an alternative to Method I for beneficiaries who wish
          to make their own arrangements for supplies and equipment. The CMS believes that
          congressional intent in establishing Method II was to save the beneficiary money on coinsurance
          expenses by allowing beneficiaries to deal directly with suppliers. With Method II, a single
          durable medical equipment (DME) home dialysis supplier provides all necessary equipment and
          supplies for the home dialysis beneficiary while a dialysis facility provides services.3 The
          supplier must report all items and services, which are furnished to the beneficiary, to the
          coordinating dialysis facility at least every 30 days, so that the facility can record the information
          in the beneficiary’s record. The FIs process all ESRD service-related claims and the DMERCs
          process all supply claims.




          3
              See Medicare Intermediary Manual 3166, 3167, 3170 for a detailed listing.




Home Dialysis Payment Vulnerabilities                            2                        OEI-07-01-00570
          The DME supplier bills for equipment and supplies that it provides, with reimbursement limited
          to $1,490 per month, per beneficiary, for all treatment modalities except CCPD, which is
          limited to $1,974. In addition to supplier payments, Medicare pays the coordinating dialysis
          facility for services provided (e.g., maintaining documentation and arranging for lab tests).

METHODOLOGY

Pre-Inspection Activities

          In order to gain a better understanding of ESRD, we reviewed relevant publications and held
          discussions with knowledgeable officials at CMS. We met with representatives from a local
          dialysis facility as well as an ESRD Network official to discuss billing and other related issues.
          Additionally, we reviewed documents published by advocacy and service groups, such as the
          ESRD Networks.

Population Identification

          The intended population for this inspection was to include beneficiaries listed in the Renal
          Beneficiary and Utilization System. However, efforts to select this population were
          compromised, due to data problems identified in our recent report “Problems Pervade the
          Renal Beneficiary and Utilization System” (OEI-07-01-00250). We, therefore, selected our
          population from a file CMS created for use in this inspection. This file was created from CMS-
          382 submissions to the CWF in late 1996 to mid-2001.

          Using this CMS-382 file, the CMS Enrollment Database and the National Claims History
          (NCH) file, we extracted our population and ESRD claims for beneficiaries dialyzing as of
          January 1, 2000. The NCH file claims were identified using Medicare Status Codes and
          included all claims processed by FIs and DMERCs.

          The inspection was broken into two parts: (1) identifying excess dollars paid for CCPD under
          Method II rather than under Method I, and (2) identifying home dialysis claims paid without an
          existing method selection on the CWF. Each of these parts followed the same procedure of:
          (1) analyzing the processes for paying ESRD-related claims,
          (2) analyzing questionable payments, and (3) identifying dollars at risk in the Medicare
          program.

          To identify excess dollars paid for CCPD under Method II, we calculated the amount that
          Medicare and beneficiaries actually paid, according to claims data, and then subtracted this
          amount from the maximum payment that would have been allowed under Method I.

          For processing ESRD-related claims, we identified claims without CMS-382 forms on file. We
          also conducted a telephone survey with each FI and DMERC to understand what processes
          are in place to ensure the appropriate payment of ESRD-related claims. We asked which
          specific edits are being used and whether any contractors implemented specific practices to
          supplement these edits. In addition, we interviewed CMS staff to


Home Dialysis Payment Vulnerabilities                  3                               OEI-07-01-00570
          determine what edits, procedures, and controls are in place to ensure accurate claims
          processing and payment.

          In this study, allowed dollars are dollars Medicare allowed for a claim. Medicare typically pays
          80 percent of the allowed amount after the beneficiary deductible. Unless otherwise indicated,
          we used the total allowed dollars to determine the effect on the Medicare program and
          beneficiaries. We did not conduct a medical record review.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Home Dialysis Payment Vulnerabilities                4                              OEI-07-01-00570
                                               FINDINGS

          Medicare regulations for reimbursement for home dialysis are inconsistent, resulting in Medicare
          and beneficiaries paying $15.3 million more for CCPD under Method II than would have been
          paid for the same services and supplies under Method 1. Also, Medicare contractors allowed
          $9.5 million for claims without existing method selection data in the CWF. We recommend that
          CMS make a regulatory change to correct inequities in home dialysis payments, ensure that
          claims are not paid unless a valid method selection form is on record, and collect any
          incorrectly paid claims.

Medicare regulations for reimbursement for home dialysis are
inconsistent

          Consistent with statutory requirements4 and the CMS Carrier Manual, all dialysis kits for all
          modalities under Method I were paid up to the same rate of $1,490 per month in
          CY 2000. Under Method II, hemodialysis and CAPD were paid the same as in Method I, but
          the CCPD payment could be as much as $1,974 per month (a $484 premium) even though the
          supplies provided are the same as those supplied under Method I.

          Medicare and beneficiaries paid a total of $62.2 million in CY 2000 for CCPD kits under
          Method II. If Medicare had paid for these same supplies at the maximum limit for Method I
          reimbursement, the total allowable amount would have been $49.9 million, a difference of
          $15.3 million. In 1992, CMS, formerly the Health Care Financing Administration (HCFA),
          referenced a 1989 congressional document which stated that by establishing Method II,
          beneficiaries would save money on coinsurance expenses because they could make their own
          arrangements.5 However, beneficiaries paid at least an additional $3.1 million (20 percent
          coinsurance of $15.3 million) by choosing Method II CCPD over Method I CCPD. Medicare
          paid an additional $12.2 million for CCPD kits under Method II, which is $15.3 million less the
          $3.1 million beneficiary coinsurance.

          The CMS (formerly the HCFA) expressed concern that Method II reimbursement, if left
          unchecked, would create an economic incentive for suppliers to encourage Method II
          selection.6 MedPAC also stated that this incentive increased the use of CCPD from
          3 to 5 percent of all forms of dialysis during 1993-1997.


          4
              Omnibus Budget Reconciliation Act of 1989

          5
           57 FR 54179 (November 17, 1992) ; Medicare and Medicaid Health Budget Reconciliation Amendments of
1989: 40 (Comm. Print 101-1)

          6
              54 FR 1247 (January 12, 1989)

Home Dialysis Payment Vulnerabilities                     5                                   OEI-07-01-00570
          Between CYs 1997 to 2000, there has been a trend from beneficiaries choosing Method I to
          choosing Method II and a trend from beneficiaries dialyzing under CAPD to dialyzing under
          CCPD. As shown in Chart 1 below, since 1997, the share of Method I and CAPD decreased
          19 percent and 15 percent, respectively. During the same period, the share of Method II and
          CCPD increased 31 percent and 32 percent, respectively, meaning that such a trend will
          escalate the costs of ESRD for both Medicare and beneficiaries.

Chart 1: Percentage of Beneficiaries Receiving Peritoneal Dialysis by Modality and Method




Medicare paid $9.5 million in claims without an existing
method selection.

          According to the Carrier Manual, no payment can be made for any home dialysis items or
          services for a beneficiary, unless a CMS-382 form has been filed.7 This form indicates that a
          beneficiary has selected home dialysis, and whether the beneficiary has opted for either Method
          I or Method II.

          In CY 2000, Medicare allowed $9.5 million for claims without a corresponding method
          selection recorded in the CWF. This amount is a combination of $8.9 million from more than
          5,000 claims for home dialysis related items;8 and $660,000 for more than


          7
              This criteria was stated in 1990 and reiterated in various forms in 1991, 1993, and 1998.

          8
              Codes A4650-A4927

Home Dialysis Payment Vulnerabilities                             6                                       OEI-07-01-00570
          7,000 facility claims of home dialysis support services9 that were paid despite the lack of a
          recorded method selection from the CMS-382 form. The problem is systemic among all
          DMERCs and FIs.

          The FIs and DMERCs are responsible for determining the appropriateness of payments by
          checking against the method selection designation in the CWF. In addition, the CWF maintains
          a consistency edit, RD 08, which functions to reject the claim in the absence of a valid method
          selection.10 Once a claim is submitted, the CWF sends a trailer back to the contractor
          identifying the beneficiary’s method selection and effective date. Fiscal intermediary billing
          specialists stated that if the CWF rejects claims without a method selection, the providers must
          submit additional information to support the claim. In the case of an RD-08 rejection, the
          provider must resubmit a CMS-382, which the FI will input into their own system as well as in
          the CWF. The DMERC staff stated that if there was no method selection on file in the CWF,
          the claim should be denied. The ESRD facility would then need to submit a CMS-382 to the
          FI. Nonetheless, claims are paid without the method selection recorded on the CWF.
          Therefore, the edit is not always working properly.




          9
              Revenue Codes 825, 835, 845, 855


          10
               Medicare Intermediary Manual: 3644.4 (11-92)


Home Dialysis Payment Vulnerabilities                          7                      OEI-07-01-00570
                                CONCLUSION AND
                               RECOMMENDATIONS

          The current number of ESRD beneficiaries is 273,000, with annual expenditures of $12 billion.
          A projected doubling of the population in 10 years makes payment processes for dialysis
          significant. Current regulations caused Medicare and beneficiaries to pay an additional $15.3
          million for CCPD under Method II in CY 2000. Also, Medicare contractors paid $9.5 million
          in claims without existing method selection data in the CWF. As such, we recommend that
          CMS:

          ‘          Change regulations to limit payments for Method II CCPD kits to that of Method I.

          ‘	         Ensure that claims are not paid unless a valid method selection form has been recorded
                     on the CWF.

          ‘          Review the $9.5 million in paid Medicare claims and collect any incorrect payments.




AGENCY COMMENTS

          In its written response to our report, CMS disagreed with the recommendation of changing
          regulations to limit payments for Method II CCPD supplies to that of Method I. The CMS
          believes the statute clearly intends that payment limits for CCPD supplies should be set at a
          higher level than under the composite rate methodology. We agree that the statute clearly
          allows a higher payment limit for CCPD supplies under Method II; however, the statute does
          not require paying the higher limit. Therefore, we continue to believe that CMS should
          reimburse suppliers consistently for the same dialysis supplies, irrespective of the method the
          beneficiary chooses.

          The CMS agrees to take corrective action to ensure that claims are not paid unless a valid
          method selection form has been recorded on the CWF and that improper overpayments should
          be recovered. The full text of CMS’s comments is included in Appendix B.




Home Dialysis Payment Vulnerabilities                   8                             OEI-07-01-00570
                                                                                    APPENDIX A


Claims Processing

          There are five basic steps in the claims payment process: 1) claims submission, 2) basic checks,
          3) shared system processing, 4) querying the CWF, and 5) payment processing. When
          contractors receive claims for payment of ESRD services, they enter the claims information into
          their local system to perform basic checks, calculate the payment amount, and conduct
          consistency and utilization edits in order to measure compliance with the contractor’s (i.e., FI,
          DMERC) guidelines. Contractors use their own local system to perform basic checks; but, to
          complete shared system processing, contractors use standardized CMS-approved software
          packages. The process is driven by the individual contractor’s medical review guidelines and
          are based on CMS’s national guidelines.

          When contractors have finished processing the claim to the point of payment or denial, they
          must then query the CWF at one of the nationwide host sites. The FI or DMERC electronically
          forwards the claim to the CWF host site for edit checks and payment authorization.

          For home dialysis beneficiaries, the FIs and DMERCs compare claims for ESRD supplies and
          equipment to the method selection information in CWF. The CWF host site then reviews the
          claim for consistency, entitlement, remaining benefits, deductible status, and duplicates of
          previously processed claims.

          Within 24 hours of receiving the claim, the host site makes one of three payment determinations:
          pay the claim, reject the claim, or hold the claim to obtain missing information. When the host
          site authorizes the payment, the FI or DMERC pays the claim.

          The CMS has made recent changes in policy, which affect claims processing. According to
          Program Memorandum B-01-56, supply kits were unbundled after January 1, 2002, and each
          individual item contained in the kit has now become a separate line item on each claim, thus
          requiring line-item billing. Also, the CMS recently released Program Memoranda AB-00-96
          and AB-01-61, which requires FIs and DMERCs to determine the effective date, rather than
          the signed date, of the CMS-382 form in an attempt to reduce inappropriate payments.




Home Dialysis Payment Vulnerabilities                 9                              OEI-07-01-00570
                                             APPENDIX B




Home Dialysis Payment Vulnerabilities   10   OEI-07-01-00570
Home Dialysis Payment Vulnerabilities   11   OEI-07-01-00570
                              ACKNOWLEDGMENTS
This report was prepared under the direction of Brian T. Pattison, Regional Inspector General for
Evaluation and Inspections and Gina Maree, Assistant Regional Inspector General for Evaluation and
Inspections in Kansas City. Other principal Office of Evaluation and Inspections staff who contributed
include:

Brian T. Whitley, Lead Analyst                                  Bambi Straw, Program Specialist
Michael Barrett, Team Leader                                    Brian Ritchie, Director, Technical
Linda Paddock, Program Analyst                                             Support Staff
                                                                Linda Moscoe, Program Analyst
                                                                Scott Horning, Program Analyst




                                For information or copies of this report, please contact

                                          the Office of Inspector General’s

                                       Public Affairs office at (202) 619-1343.


                Reports are also available on the World Wide Web at our home page address:

                                           http://www.oig.hhs.gov/




Home Dialysis Payment Vulnerabilities                     12                                OEI-07-01-00570
